 REVIEW OF DOT PRIVACY
POLICIES AND PROCEDURES

   Department of Transportation

   Report Number: FI-2008-077
  Date Issued: September 9, 2008
               U.S. Department of
                                                              Memorandum
               Transportation
               Office of the Secretary
               of Transportation
               Office of Inspector General


Subject:   ACTION: Review of DOT Privacy Policies and                               Date:    September 9, 2008
           Procedures
           Report Number FI-2008-077
  From:    Rebecca C. Leng                                                       Reply to
                                                                                 Attn. of:   JA-20
           Assistant Inspector General for Financial
           and Information Technology Audits
    To:    Daniel G. Mintz
           Chief Information and Privacy Officer, DOT

           This report summarizes the results of our audit of the Department of
           Transportation’s (DOT) protection of privacy information. DOT has determined
           that more than 100 of its 429 computer systems contain personally identifiable
           information (PII) about the public and DOT employees. Twelve of the
           13 Operating Administrations in DOT, including the Office of Inspector General
           (OIG), contain at least one system with privacy information.

           In the Fiscal Year 2005 Consolidated Appropriations Act for Transportation,
           Treasury, Independent Agencies, and General Government, 1 Congress required
           agencies to enhance the protection of the PII that it collects and uses. The Act
           required agencies to create a Chief Privacy Officer position, submit a benchmark
           report on the privacy program to Congress and the Inspector General, and have an
           independent audit of the privacy program performed.

           We contracted with an independent firm to perform the audit, as required by law.
           In addition to this contract audit, OIG has conducted other privacy-related audits 2




           1
               Public Law 108-447.
           2
               Audit of Security and Controls Over the National Driver Register, OIG Report Number FI-2008-003,
               October 29, 2007; DOT’s Information Security Program, OIG Report Number FI-2007-002, October 23,
               2006, and OIG Report Number FI-2008-001, October 10, 2007. All of these publications can be found on
               our Web site at www.oig.dot.gov.
                                                                                                       2


and is in the process of reviewing systems that contain PII concerning millions of
commercial vehicle drivers and airmen. 3

The objectives of this audit were to determine whether (1) the necessity of using PII
for processing was properly evaluated; (2) the Department had established adequate
procedures governing the collection, use, and security of PII; and (3) Operating
Administrations properly complied with prescribed procedures to prevent
unauthorized access to, or unintended use of, PII.

The audit was completed by Clifton Gunderson, LLP, of Calverton, Maryland,
under contract to the DOT OIG, and by OIG staff in accordance with generally
accepted government auditing standards as prescribed by the Comptroller General
of the United States and included such tests as we considered necessary to detect
fraud, waste, or abuse. We performed a quality control review of the audit work
performed by Clifton Gunderson to ensure that it complied with generally accepted
government auditing standards. In our opinion, Clifton Gunderson’s audit work
complied with applicable standards. Details of the scope and methodology can be
found in Exhibit A.


FINDINGS

Clifton Gunderson concluded that DOT made significant progress in addressing its
statutory responsibilities under the Act by designating a senior official—the
departmental Chief Information Officer—to be the Chief Privacy Officer. 4 The
Chief Information and Privacy Officer issued a privacy benchmark report to
Congress and the OIG in September 2006. His office also maintains an inventory
of PII systems.

Clifton Gunderson also concluded that DOT has established proper procedures and
a framework for assessing the necessity of using PII and the collection, use, and
security of PII. However, tests of 20 sample PII systems identified deficiencies in
compliance with the prescribed procedures. (The contractor’s complete report can
be found in Appendix A). As shown in the table on pages 15 and 16, 15 of the 20
systems sampled had at least one control deficiency.




3
  Audit initiated on Information Security and Privacy Controls of FAA Medical Support System, OIG Project
   Number 08F3006F000, February 28, 2008; and audit initiated on Data Integrity of the Commercial
   Driver’s License Information System, OIG Project Number 08F3003F000, December 5, 2007.
4
  Day-to-day oversight of DOT PII compliance operations is delegated to the privacy officers in the Chief
   Information Officer’s office and in individual Operating Administrations.
                                                                                    3


The following summarizes the contractor’s findings:

 1. The DOT Privacy Office did not provide evidence to support the effectiveness
    of procedures used in evaluating and identifying Operating Administration
    systems containing PII. The departmental privacy office had evaluation
    documents for only the 109 systems contained in its PII inventory. The office
    could not provide completed evaluations to support that no PII is stored in 320
    of DOT’s 429 systems. DOT has no assurance that all systems containing PII
    have been identified for protection.

 2. Deficiencies existed in DOT’s collection, security protection controls, and
    notification of the public concerning PII system data. The contractor found
    that 9 of 20 sampled systems requiring a System of Records Notice (SORN)
    did not have one published. As a result, the public was not properly notified of
    the intended use of the information collected from it. In addition, 1 of 20
    systems requiring a Privacy Impact Assessment (PIA) did not have one
    performed and 2 of 5 sampled systems that share privacy information with
    outside agencies did not have memoranda of understanding to ensure proper
    security protection of PII by the recipient agencies.

 3. Twelve of the 20 sampled PII systems did not encrypt their PII data for
    network transmission. This is in direct noncompliance with DOT PII security
    policy 2006-22 for protection of PII. This can lead to unauthorized review of
    these data during transmission and/or exploitation of these systems for
    malicious intent.

 4. Four of the 20 sampled PII systems did not have basic DOT password security
    controls, such as appropriate password length and complexity, password
    expiration, number of invalid log-in attempts, and session time-out expiration.
    Lack of compliance with these DOT security control policies could enable
    unauthorized users to crack passwords and obtain access to PII systems and
    data.

 5. The departmental and Operating Administration privacy officers did not
    receive more privacy regulation and PII security protection training than the
    average departmental employee. This may have directly affected the privacy
    officers’ ability to understand the statutory requirements necessary to identify
    PII systems and fully implement adequate security protection controls over
    their PII systems identified in this audit.

 Further, the Act requires privacy officials to ensure that the use of technology does
 not erode protection of privacy information. However, in a matter that we view as
 also related to training and that was not part of the contractor’s report, DOT
 experienced an incident during early 2007 in which one of its privacy officers
                                                                                                        4


stored PII on a home computer with peer-to-peer file-sharing capabilities. As a
result, an unauthorized user on the Internet was able to download this
information. 5 Enhanced privacy and security training may have prevented this
incident.

In conjunction with the contractor’s review, OIG staff examined security
protection of the Web sites developed for two sampled systems. 6 Web
technologies are commonly used to allow authorized users to access information
from the Internet. OIG staff identified significant deficiencies in these Web sites
that could allow Internet hackers to gain unauthorized access to the PII stored in
these two systems. 7 This occurred because these Web sites were not properly
configured in accordance with departmental standards.

We also noted that the departmental privacy officer does not report directly to the
Chief Information and Privacy Officer. The Chief Information and Privacy
Officer delegated the responsibility of establishing privacy policies and managing
the Department’s privacy program to the departmental privacy officer. However,
this key position reports to the Acting Chief Information Security Officer, who in
turn reports to the Chief Information and Privacy Officer and whose primary
responsibility is information security, not privacy. In our opinion, this
organizational structure has reduced the visibility of the privacy program and was
a major contributing factor to the deficiencies identified in this audit. Having the
departmental privacy officer report directly to the Chief Information and Privacy
Officer could increase management awareness and provide closer scrutiny of
Operating Administrations’ corrective actions.

We provided a draft report to the DOT Chief Information and Privacy Officer for
comment on July 8, 2008, and on August 19th we received the response. The
Chief Information and Privacy Officer concurred or concurred in part with all of
our recommendations, and stated that his office is in the process of acquiring and
implementing technology to ensure that no PII can be obtained from DOT systems
and infrastructure by unauthorized parties. The response can be found in its
entirety in Appendix B.




5
  Testimony of Daniel G. Mintz, Chief Information Officer, DOT, before the Committee on Oversight and
  Government Reform, House of Representatives, July 24, 2007.
6
  Web technologies were used in 4 of 20 sampled systems. Due to logistical limitations, we were able to
  examine only two systems.
7
  For security reasons, specifics concerning the weaknesses and vulnerabilities that we identified and our
  audit procedures are not discussed in this report but were provided to Operating Administration privacy
  officers.
                                                                                5


RECOMMENDATIONS

Based on both Clifton Gunderson and OIG findings, we recommend that the
departmental Chief Information and Privacy Officer:

1. Require system owners to submit evaluation results on whether PII exists in the
   320 systems that were not included in the DOT Privacy Office inventory.

2. Require system owners of sampled systems to correct privacy protection
   deficiencies identified in the areas of missing SORNs, PIAs, and memoranda
   of understanding with outside agencies when sharing PII; and notify system
   owners of remaining PII systems to check whether they need to take similar
   corrective actions.

3. Require Operating Administration privacy officers to implement a process
   under which future systems are subject to periodic review to ensure that
   SORNs are initiated and posted, PIAs are developed, and memoranda of
   understanding with outside agencies are documented; and that such elements
   are appropriately updated when systems undergo change.

4. Encrypt all PII data transmitted over the Department’s communications
   network.

5. Require system owners of sampled systems to correct security deficiencies
   concerning password security controls, invalid log-in attempts, and session
   time-out expiration; and notify system owners of remaining PII systems to
   check whether they need to take similar corrective actions.

6. Require Operating Administration privacy officers to implement a process
   under which periodic performance checks are carried out to ensure that all PII
   systems remain in full compliance with DOT security policies.

7. Provide enhanced privacy security training for Operating Administration
   privacy officers, who are responsible for implementing annual privacy
   practices in their respective organizations.

8. Require system owners of sampled systems to correct security deficiencies
   found in their Web sites; and notify system owners of remaining PII systems to
   check whether they need to take similar corrective actions.

9. Increase the visibility of the DOT Privacy Program by having the departmental
   privacy officer report directly to the Chief Information and Privacy Officer.
                                                                                6


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft report to the DOT Chief Information and Privacy Officer for
comment on July 8, 2008, and on August 19th we received the response. The
Chief Information and Privacy Officer concurred or concurred in part with all of
our recommendations, and stated that his office is in the process of acquiring and
implementing technology to ensure that no PII can be obtained from DOT systems
and infrastructure by unauthorized parties. The response can be found in its
entirety in Appendix B.

In general, management actions—begun and planned—adequately address the
intent of our recommendations, with the exception of recommendations 1 and 4.
The responses to our recommendations are summarized as follows:

Recommendation 1: The Chief Information and Privacy Officer concurred. In
the response, it was stated that the results of an August 2007 survey of all DOT
systems to determine which contained PII are now available for Office of
Inspector General review—including those not previously made available.
However, our review of the new information provided by management still found
no support that PII was not contained in the 320 systems questioned in our report.
Therefore, as originally recommended, the Chief Information and Privacy Officer
should require system owners to submit evaluation results to ensure that PII does
not exist in these 320 systems.

While not part of our recommendation, the Privacy Office has proposed that a
Privacy Threshold Analysis be performed during initial system certification and
accreditation and reaccreditation to determine whether the system contains PII.
The Office of the Chief Information and Privacy Officer has set a target date of
March 31, 2009, for implementation. We support this planned action.

Recommendation 2: The Chief Information and Privacy Officer concurred.
System owners responsible for missing or outdated Privacy Impact Assessments
and Systems of Records Notices have been notified for correction, and owners of
systems containing PII will be notified, by March 31, 2009, to address and update
memoranda of understanding with outside agencies.

Recommendation 3: The Chief Information and Privacy Officer concurred. The
recommended actions—requiring Operating Administration privacy officers to
implement a process under which future systems are subject to periodic review for
initiation and posting of Systems of Records Notices, development of Privacy
Impact Assessments, and documentation of memoranda of understanding with
outside agencies—coincide with DOT’s privacy policy and will be implemented
                                                                                 7


through appropriate direction to Operating Administration CIOs and privacy
officers, and in DOT/CIO policy by March 31, 2009.

Recommendation 4: The Chief Information and Privacy Officer concurred. His
office is presently conducting a detailed analysis of system and encryption
requirements and anticipates that this analysis will be completed by March 31,
2009. Based on the analysis, a detailed action plan will then be developed to
implement encryption requirements.

While the Chief Information and Privacy Officer provided us with a plan of action
and date of completion for the analysis of encryption requirements, no date was
provided for the completion of actually encrypting the transmission of PII over the
Department’s network. The Chief Information and Privacy Officer should provide
a target date for completing this action, which has been a departmental
requirement since 2006.

Recommendation 5: The Chief Information and Privacy Officer concurred. He
anticipates that systems containing PII can be secured by July 31, 2009. In
addition, his office will address issues identified in the report with Operating
Administration CIOs, information system security officers, privacy officers,
system owners, and other responsible parties.

Recommendation 6: The Chief Information and Privacy Officer concurred. His
office will issue a directive by December 31, 2008 for Operating Administration
privacy officers to conduct performance checks to ensure that they remain in full
compliance with DOT security policies.            A final policy memorandum,
incorporating feedback from the directive, will be issued by March 31, 2009.

Recommendation 7: The Chief Information and Privacy Officer concurred. By
written notification to modal privacy officers, he will require the owners of
sampled systems to correct security deficiencies on their Web sites. He will also
direct modal privacy officers, CIOs, and information system security officers to
work with owners of all systems containing PII to identify any necessary
corrective actions and develop corrective action plans by March 31, 2009.

Recommendation 8: The Chief Information and Privacy Officer concurred. He
has recommended specialized training for Operating Administration privacy
officers, and his office will establish such requirements—both for content and
frequency—by March 31, 2009.

Recommendation 9: The Chief Information and Privacy Officer partially
concurred. He cited a tradeoff between increasing the visibility of the DOT
Privacy Program by having the departmental privacy officer report directly to the
                                                                                   8


Chief Information and Privacy Officer versus keeping the current reporting
relationship. While acknowledging that increased visibility for the Privacy Office
would be beneficial, he cited the “synergies” and “more efficient use of staff
collectively” as reasons for favoring the current structure. He further stated that
perhaps some of the issues identified in our report resulted from personnel changes
occurring at the time of our review and, therefore, that such a reporting shift might
not accomplish much.

Therefore, the Chief Information and Privacy Officer favored leaving the current
structure as is for the next fiscal year—focusing on implementing suggested
changes, enhancing associated internal auditing reviews, and developing more
transparent measures of operating status—then reexamining whether changing the
reporting structure is needed at the end of Fiscal Year 2009. This planned action
meets the intent of our recommendation. We plan to follow up on this issue
through next year’s review of the Department’s information security program.


ACTIONS REQUIRED
Except for recommendations 1 and 4, the actions begun and planned by the Chief
Information and Privacy Officer are responsive to our recommendations and are
considered resolved subject to follow-up requirements in DOT Order 8000.1C.
We would appreciate receiving the Chief Information and Privacy Officer’s
updated response to include revised completion dates for recommendations 1 and
4 within 30 days.

We appreciate the courtesies and cooperation of the DOT Office of the Chief
Information and Privacy Officer, DOT Operating Administration privacy officers,
and Clifton Gunderson representatives during this audit. If you have any
questions concerning this report, please call me at (202) 366-1407 or
Nathan Custer, Program Director, at (202) 366-5540.



                                         #

cc: General Counsel
    DOT Chief Information Officer’s Council Members
    Martin Gertel, M-1
                                                                                  9

EXHIBIT A. SCOPE AND METHODOLOGY
This audit was conducted by Clifton Gunderson, LLP, of Calverton, Maryland, under
contract to DOT OIG, and by OIG staff. The audit was conducted at selected DOT
Operating Administrations in Washington, D.C. and field sites. The following
summarizes the contractor’s scope and methodology:

   • The contractor reviewed DOT’s benchmark report to the OIG prepared in
     fulfillment of Section 522-c of the Appropriations Act and dated September 26,
     2006.

   • The contractor reviewed and analyzed privacy policies, guidance, and reports,
     and interviewed officials from the Privacy Office.

   • The contractor analyzed the System of Records Notice and Privacy Impact
     Assessment development processes and assessed the progress of the office in
     implementing these processes.

   • The contractor selected a representative sample of 20 systems for testing of
     security controls, publication of System of Records Notice, and performance of
     the Privacy Impact Assessment.

Details can be found on pages 18, 19, and 20 of Appendix A of this report.

The OIG staff examined security protection of Web sites developed for two sampled
systems. We did this by examining policies and procedures, observing controls in
operation, and using a commercial tool to assess the vulnerability of the Web sites.

The audit work was performed between December 2007 and May 2008. This
performance audit was conducted in accordance with generally accepted government
auditing standards prescribed by the Comptroller General of the United States and
included such tests as we considered necessary to detect fraud, waste, and abuse.




Exhibit A. Scope and Methodology
                                                                            10

EXHIBIT B. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                            Title

Nathan Custer                                   Program Director

Dr. Ping Sun                                    Program Director for IT
                                                Audit Computer Laboratory

James Mallow                                    Contracting Officer’s
                                                Technical Representative

Michael P. Fruitman                             Communications Adviser

Vasily Gerasimov                                Information Technology
                                                Specialist




Exhibit B. Majors Contributors to This Report
                                                                               11



APPENDIX A. REPORT ON THE 2007 REVIEW OF DOT’s
COMPLIANCE WITH SECTION 522 OF THE CONSOLIDATED
APPROPRIATIONS ACT OF 2005



  UNITED STATES DEPARTMENT OF
    TRANSPORTATION (US-DOT)




        Report on the 2007 Review of DOT’s
        Compliance with Section 522 of the
       Consolidated Appropriations Act, 2005.
      (Policies, Procedures & Practices for Protection of
             Personally Identifiable Information)


                        Clifton Gunderson LLP
                           February 29, 2008


Appendix A. Report on the 2007 Review of DOT’s Compliance with Section 522 of the
Consolidated Appropriations Act of 2005
                                                                                                            12




Ms. Rebecca C. Leng
Assistant Inspector General for Financial and
  Information Technology Audits
Office of the Inspector General
U.S. Department of Transportation
1200 New Jersey Avenue SE
Washington, DC 20590

Dear Ms. Leng
We are pleased to present our report on the Department of Transportation’s (DOT) compliance with
protection of personal data in an identifiable form. This review included assessing compliance with
applicable federal security and privacy laws and regulations as well as assessing the privacy and data
protection procedures used by DOT as they relate to the guidelines set forth in Section 522-d of the
Omnibus Spending Bill for Transportation, Treasury, Independent Agencies, and General Government Appropriations
Act of 2005. The objective of our review was to determine whether: (1) the necessity of using personally
identifiable information for processing was properly evaluated; (2) the Department had established
adequate procedures governing the collection, use and security of personally identifiable information; and
(3) Operating Administrations (OAs) properly complied with the prescribed procedures to prevent
unauthorized access to and unintended use of personally identifiable information.
We interviewed key personnel involved in identifying and protecting personally identifiable information
and reviewed documentation supporting DOT’s efforts to comply with federal privacy and security laws
and regulations.
This performance evaluation was conducted from October 2007 to January 31, 2008 at the DOT
headquarters in Washington, DC and was conducted in accordance with Generally Accepted Government
Auditing Standards.
We appreciate the opportunity to have served you once more and are grateful for the courtesy and
hospitality extended to us by DOT personnel. Please do not hesitate to call me at (301) 931-2050 or
email at george.fallon@cliftoncpa.com if you have questions.
Sincerely,


CLIFTON GUNDERSON LLP




Calverton, Maryland
February 29, 2008

11710 Beltsville Drive
Suite 300
Calverton, Maryland 20705
tel: 301-931-2050
fax: 301-931-1710
www.cliftoncpa.com                       Offices in 17 states and Washington, DC

Appendix A. Report on the 2007 Review of DOT’s Compliance With Section 522 of the
Consolidated Appropriations Act of 2005
                                                                                        13

EXECUTIVE SUMMARY

The DOT Office of the Chief Information Officer (OCIO) Privacy Office has been
proactive in carrying out its statutory responsibilities and its related role in ensuring
compliance with Section 522 of the General Government Appropriations Act of 2005.
Specifically, the Privacy Office has established a framework for identifying information
systems containing or processing personally identifiable information (PII), securing data
contained in these systems, conducting Privacy Impact Assessments (PIA) and reporting
Systems of Records Notices (SORNs), all required by the Act. The Office of the Secretary
of Transportation performs cyclical checks to ensure OA’s comply with these requirements
and maintains a weekly scorecard of these activities.
Based on our review, DOT has (a) evaluated the necessity of using PII for data processing;
(b) established procedures for the collection, use and security of PII and (c) Operating
Administrations complied with the prescribed procedures to prevent unauthorized access to
and unintended use of PII. However more work remains to be accomplished. Specifically,
we noted the following:
Although the DOT OCIO and Privacy Office have established policies and
procedures to protect DOT’s PII systems and data, the Privacy Office does not
properly monitor its privacy processes for quality compliance with the provisions of
Section 522.

¾ DOT did not provide evidence to support the effectiveness of the procedures used in
  identifying and securing information systems containing PII. The Privacy Office could
  not provide evidence that evaluations were performed for all four hundreds and twenty-
  nine DOT systems that may potentially contain and/or process PII.
¾ DOT did not provide evidence that the Privacy Office had a structured format to
  monitor the effectiveness and completeness of PIAs and SORNs implemented by the
  different OAs on affected systems. (DOT did not have a permanent Departmental
  Privacy Officer during our review period from October 2007 through January 2008).
  Limited resources and/or personnel could account for this lack of adequate monitoring
  resulting in the following:
  o A Privacy Impact Assessment (PIA) had not been performed for one (1) out of
      twenty (20) systems in our sample. This system contained public PII and required a
      PIA.
  o SORNs were not published for nine (9) out of twenty (20) sample systems tested.
      While the Privacy Office has reviewed, approved, and issued new SORNs since its
      establishment, we identified nine sampled systems did not have SORN notices
      published. The department is not in compliance with the Office of Management and
      Budget (OMB) requirements that SORNs be published and reviewed semi-annually,
      nor can it be assured that the privacy implications of its many systems that process
      and maintain PII have been fully and accurately disclosed to the public. These
      notices should identify, among other things, the type of data collected, the types of
      individuals about whom information is collected, and the intended uses of the data.
¾ DOT OAs had not established Memoranda of Understandings (MOU) for two (2) out
  of five (5) systems from our sample of twenty systems that share privacy data with
  external agencies. Also, the PIAs reviewed did not provide guidance on privacy

Appendix A. Report on the 2007 Review of DOT’s Compliance With Section 522 of
the Consolidated Appropriations Act of 2005
                                                                                        14

   information sharing with other agencies. These PIAs did not include measures to
   escalate requests from federal agencies (law enforcement bureaus) that may require PII
   for legitimate government business.
¾ DOT Privacy Office had not provided enhanced privacy security training to OA Privacy
  Officers as well as their representatives who are responsible for deploying DOT’s PII
  policies at their respective OAs. DOT does provide its employees with security
  awareness training. Per the responses on the OCIO FISMA template for September
  2007, eighty-six percent of DOT employees have received security training for fiscal year
  2007. Although security protection of PII data was part of these training courses, the
  agency’s Privacy Officers did not receive enhanced privacy security training to assist
  them in understanding all integral parts of their job responsibilities.

DOT technical controls related to the protection of personally identifiable
information need to be strengthened.

¾ Twelve (12) out of twenty (20) sampled PII systems reviewed do not encrypt their PII
  data and transmit this data over DOT’s network in clear unencrypted text.
¾ Four (4) out of twenty (20) systems were non-compliant with DOT security policies
  concerning basic password security requirements, specifically: (1) number of login
  attempts on two systems in our sample (10%) was set to expire after six unsuccessful
  logon attempts; (2) password parameters for one system requires the password to be
  changed every 180 days contrary to DOT policy of 90 days; (3) One system had not
  implemented secure password settings such as password complexity, number of invalid
  login attempts, session expiration and password expiration.

DOT consists of the Office of the Secretary and eleven individual OAs: the Federal Aviation
Administration (FAA), the Federal Highway Administration (FHWA), the Federal Motor
Carrier Safety Administration (FMCSA), the Federal Railroad Administration (FRA), the
National Highway Traffic Safety Administration (NHTSA), the Federal Transit
Administration (FTA), the Maritime Administration (MARAD), the Saint Lawrence Seaway
Development Corporation, the Research and Special Programs Administration, the Bureau
of Transportation Statistics, and the Surface Transportation Board.
The following table summarizes the sample of systems reviewed and exceptions noted:




Appendix A. Report on the 2007 Review of DOT’s Compliance With Section 522 of
the Consolidated Appropriations Act of 2005
                                                                                            15


                                                              Results of Tests
                                                Systems of       Privacy
                            System               Records          Impact           Technical
 #       OA               Description            Notices      Assessments           Controls
1      FAA       Delphi tracking System        SORN not      null              null
                 (DTF)                         published
2      FAA       Enforcement Information       SORN not      PIA required     No data
                 System (EIS)                  published     but not yet      encryption.
                                                             developed
3      FAA       MedXPress                     null          null             Password settings
                                                                              not consistent
                                                                              with DOT policy.
                                                                              No data
                                                                              encryption.
4      FAA       Safety Performance Analysis   SORN not      null             Password settings
                 System (SPAS)                 published                      not consistent
                                                                              with DOT policy.
                                                                              No data
                                                                              encryption.
5      FAA       Airman Registry               null          null             No data
                 Modernization System                                         encryption.
                 (RMS)
6      FHWA      User Profile Access Control   null          null             null
                 System (UPACS)

7      FHWA      National Highway Institute    null          null             Password settings
                 (NHI)                                                        not consistent
                                                                              with DOT policy.
8      FMCSA     Electronic Document           SORN not      null             null
                 Management System             published
                 (EDMS)
9      FMCSA     Medical Exemption System      SORN not      null             No data
                 (MEDEX)                       published                      encryption.
10     FRA       Correspondence Control &      SORN not      null             Password settings
                 Management System (CCM)       published                      not consistent
                                                                              with DOT policy.
                                                                              No data
                                                                              encryption.
11     FTA       DOTS/DOT2000 Financial        SORN not      null             No data
                 Management System             published                      encryption.
12     MARAD     MSCS                          null          null             null
13     MARAD     Personnel Management          null          null             null
                 Information System (PMIS)
14     NHTSA     Motor Vehicle Importation     null          null             No data
                 Information System (MVII)                                    encryption.
15     OIG       Transportation Inspector      null          null             No data
                 General Reporting System                                     encryption.
                 (TIGR)



     Appendix A. Report on the 2007 Review of DOT’s Compliance With Section 522 of
     the Consolidated Appropriations Act of 2005
                                                                                                   16

                                                                    Results of Tests
                                                    Systems of         Privacy
                               System                Records            Impact           Technical
 #        OA                 Description              Notices       Assessments           Controls
16      OST         Security Operations System     SORN not        null              No data
                                                   published                         encryption.
17      OST         Investigative Tracking         null            null              null
                    System
18      PHMSA       HMIS                           null            null              null
19      RITA        Volpe ADP Institutional        SORN not        null              No data
                    Support Services               published                         encryption.
                    (RITAX0013)
20      STB         Case Management System         null            null              No data
                                                                                     encryption.


     BACKGROUND
     The Privacy Act of 1974 requires agencies to "establish appropriate administrative, technical
     and physical safeguards to ensure the security and confidentiality of records and to protect
     against any anticipated threats or hazards to their security or integrity which could result in
     substantial harm, embarrassment, inconvenience, or unfairness to any individual on whom
     the information is maintained," 5 U.S.C. § 552a (e) (10). The Privacy Act limits agencies to
     “maintaining only such information about an individual as is relevant and necessary to
     accomplish a purpose of the agency required to be accomplished by statute or Executive
     order of the President,” 5 U.S.C. § 552a (e) (1).
     The E-Government Act of 2002 strives to enhance protection of personal information in
     government information systems, by requiring the agencies to conduct PIAs. A PIA is an
     analysis of how personal information is collected, stored, shared, and managed in a federal
     system.
     Today's DOT Privacy Program consists of a partnership between the Office of the Chief
     Information Officer (OClO)/Privacy Office and the Office of the General Counsel (OGC).
     Additionally, the program collaborates with DOT's Information Assurance
     Office/OCIO/OST on those issues that incorporate both privacy and security, focusing
     frequently on the security of technology that may adversely affect the privacy of individuals.
     Section 522 of the 2005 Consolidated Appropriations Act for Transportation and Treasury,
     Public Law 108-447, Division H, provides additional privacy requirements for DOT,
     including the implementation of privacy policies and procedures for public and employee
     data. The legislation also requires DOT to designate a Chief Privacy Officer. OMB
     Memorandum-05-08 also requires each department to designate a Senior Agency Official for
     Privacy. For DOT, the Chief Information Officer also serves as the Senior Agency Official
     for Privacy.




     Appendix A. Report on the 2007 Review of DOT’s Compliance With Section 522 of
     the Consolidated Appropriations Act of 2005
                                                                                             17

Section 522(c) of the above-mentioned Act further requires that DOT:
       "...prepare a written report of its use of information in an identifiable form along
       with its privacy and data protection policies and procedures and record it with the
       Inspector General of the agency to serve as a benchmark for the agency. Each
       report shall be signed by the agency privacy officer to verify that the agency intends
       to comply with the procedures in the report. By signing the report, the privacy
       officer also verifies that the agency is only using information in identifiable form as
       detailed in the report. "


DOT’s use of personally identifiable information and related policies and procedures


DOT collects and uses a significant amount of personally identifiable information of both
employees and the public. The DOT Privacy Program is administrated within DOT's OCIO
and OGC, both located in the Office of the Secretary of Transportation (OST).
The goal of the DOT Privacy Program is the protection of PII. The program provides
leadership and assistance to DOT's OAs on issues related to the Privacy Act of 1974, E-
Government Act of 2002 and related Office of Management and Budget (OMB) privacy
guidance.
The DOT Privacy Program has an on-going initiative to grow the skills, knowledge and
capabilities of the privacy officers of all OAs (who are on the front line of the DOT’s efforts
to enhance privacy protection).
In conformity with the 2005 Consolidated Appropriations Act, the DOT’s Office of the
Chief Information Officer published a Privacy Benchmark report in September 2006. This
report was sent to the DOT OIG and to Congress. This report outlines the following areas:

•   DOT Privacy Program: Includes an overview of DOT’s privacy management program
    established in 2003 and Section 522 benchmark-reporting requirement.
•   DOT Use of PII, Privacy and Data Protection Policies and Procedures: Includes an overview of
    efforts used to track PII, DOT privacy officer’s compliance efforts, DOT-wide policies
    and procedures developed or drafted to date in compliance with various privacy laws,
    regulations and OMB guidance, and other key privacy initiatives.
•   OA Use of PII and Privacy Practices: Includes reports on each OA's specific PII and privacy
    program activities.

DOT’s mission is to ensure a safe and efficient national transportation system. In doing so,
DOT is required to collect and use a significant amount of personal information from
employees and the public for both administrative and operational initiatives. To ensure
information collected is secure, DOT has appointed a departmental privacy officer located
within the OCIO, as well as privacy officers within each OA. In addition to providing
leadership on DOT-wide policies and procedures, the DOT Privacy Program works
collaboratively with each OA’s privacy officer to guide and support their privacy awareness
and compliance efforts. The methodology is based upon the following:



Appendix A. Report on the 2007 Review of DOT’s Compliance With Section 522 of
the Consolidated Appropriations Act of 2005
                                                                                           18


•   Establish the priority, authority, and responsibility,
•   Assess current privacy environment,
•   Organize resources necessary for the project's goals,
•   Develop policies, procedures and practices,
•   Implement policies, practices and procedures,
•   Maintain the policies, practices and procedures,
•   Manage the exceptions and/or problems with the policies, practices and procedures.

In compliance with this requirement, DOT undertook a review of the use of PII and privacy
policies and procedures at both the DOT-wide and OA levels. In preparing the ensuing
privacy benchmark report, the DOT Privacy Officer obtained input from each OA Privacy
Officer on their specific privacy activities.
The DOT privacy officer maintains an inventory of all information technology systems that
collect, use, and share public or employee PII. As of the date of this report, there are 109
such systems. The FAA, FMCSA, and FHWA maintain the largest number of PII systems.
Given the significant amount of sensitive PII data handled by the DOT, the DOT Privacy
Officer continually works to track PII use and identify weaknesses that may require
corrective action at the program or system level. A critical part of this process involves the
review of PIAs and SORNs (if applicable) that are prepared by each PII system owner. In
some cases, however, a PII system may be exempt from the requirement to perform a PIA if
this system was created or implemented prior to the enactment of the E-Government Act of
2002. The DOT Privacy Office maintains a list of all PII systems that have completed a PIA
or SORN and is responsible for posting all final PIAs and SORNs on the DOT Privacy
Program web page.

SCOPE AND METHODOLOGY

DOT’s OIG contracted with Clifton Gunderson LLP to conduct an audit of DOT’s privacy
and data protection policies and procedures in compliance with Section 522. The objective
of this review was to assess the progress of DOT’s Privacy Office in carrying out its
responsibilities under federal law, more specifically, to determine whether: (1) the necessity
of using personally identifiable information for processing was properly evaluated; (2) DOT
had established adequate procedures governing the collection, use and security of personally
identifiable information; and (3) Operating Administrations (OAs) properly complied with
the prescribed procedures to prevent unauthorized access to and unintended use of
personally identifiable information.
To address this objective, we reviewed federal statutes including the Privacy Act of 1974
and Section 208 of the E-Government Act, to identify responsibilities of DOT’s Privacy
Office. We reviewed and analyzed privacy policies, guidance, and reports, and interviewed
with officials from the Privacy Office. The personnel interviewed included the Chief
Privacy Officer (CPO) to identify privacy office’s plans, priorities, and processes for
implementing its responsibilities using available resources.




Appendix A. Report on the 2007 Review of DOT’s Compliance With Section 522 of
the Consolidated Appropriations Act of 2005
                                                                                                          19

We further evaluated the Privacy Office policies, guidance, and processes for ensuring
compliance with the Privacy Act, and the E-Government Act. We analyzed the SORNs
and PIA development processes and assessed the progress of the office in implementing
these processes. This analysis included analyzing the Privacy Office’s overview of PIAs
developed by each OA and assessing the overall quality of published PIAs.

Perform an assessment of DOT’s privacy policies
We reviewed DOT information management practices for protection of PII, as they relate to
the guidelines set forth in Section 522-d of the 2005 Government Appropriations Act.
Public Law 107-347, the E-Government Act of 2002, defines “identifiable form” as any
representation of information that permits the identity of an individual to whom the information applies to be
reasonably inferred by either direct or indirect means. We performed procedures to assist the OIG in
evaluating DOT’s information management practices in order to:

A. Determine the accuracy of the descriptions of the use of information in identifiable form
   while accounting for current technologies and processing methods.
B. Determine the effectiveness of privacy and data protection procedures by measuring
   actual practices against established procedural guidelines.
C. Ensure compliance with the stated privacy and data protection policies of DOT and
   applicable laws and regulations.
D. Ensure that all technologies used to collect, use, store, and disclose information in
   identifiable form allow for continuous auditing of compliance with stated privacy
   policies and practices governing the collection, use, and distribution of information in
   operation of the program.
E. Provide DOT with recommendations, strategies, and specific steps, to improve privacy
   and data protection management.

We examined DOT’s PII policies, practices and data protection procedures and mechanisms
in operation. Specifically, the tasks focused on:

•   Reviewing DOT’s technology, practices and procedures with regard to the collection,
    use, sharing, disclosure, transfer and storage of information in identifiable form.
•   Reviewing DOT’s stated privacy and data protection procedures with regard to the
    collection, use, sharing, disclosure, transfer, and security of personal information in
    identifiable form relating to DOT’s employees and the public.

The E-Government Act of 2002 requires agencies to conduct a PIA either (1) before
developing or procuring information technology systems or projects that collect, maintain or
disseminate information in identifiable form or (2) when initiating a new electronic collection
of information in identifiable form for 10 or more persons (excluding agencies,
instrumentalities or employees of the federal government). In general, PIAs are required to
be performed and updated as necessary where a system change creates new privacy risks, for
example, when converting paper-based records to electronic systems. On the other hand, no
PIA is required where (1) information relates to internal government operations, (2) has
been previously assessed under an evaluation similar to a PIA, or (3) where privacy issues are
unchanged.


Appendix A. Report on the 2007 Review of DOT’s Compliance With Section 522 of
the Consolidated Appropriations Act of 2005
                                                                                                            20

To accomplish the above-mentioned objectives, we:

   Reviewed DOT’s benchmark report to the OIG dated September 26, 2006. This report
    was prepared in fulfillment of Section 522-c of the Appropriations Act. “…Each agency
    shall prepare a written report of its use of information in an identifiable form, along with its privacy and
    data protection policies and procedures and record it with the Inspector General of the agency to serve as a
    benchmark for the agency. Each report shall be signed by the agency privacy officer to verify that the
    agency intends to comply with the procedures in the report. By signing the report, the privacy officer also
    verifies that the agency is only using information in identifiable form as detailed in the report.”
   Reviewed DOT’s policies related to safeguarding PII; encryption of sensitive PII and
    guidelines for the protection of remote PII through secure remote access (SRA). [Policy
    # 2006-22 Revision 1] of October 11, 2006.
   Verified that DOT had identified and maintained an inventory of information systems
    containing PII and systems requiring PIAs and had conducted PIAs for electronic
    information systems.
   Reviewed a sample of PIAs for the following:
    o What information was collected (e.g., nature and source).
    o Why the information was collected (e.g., to determine eligibility).
    o Intended use of the information (e.g., to verify existing data).
    o With whom the information was shared (e.g., another agency for a specified
         programmatic purpose).
    o What opportunities individuals had to decline to provide information or to consent
         to particular uses of the information (other than required or authorized uses), and
         how individuals communicated consent.
    o How the information was secured from abusive use (e.g., administrative and
         technological controls).
   We selected a representative sample of systems from OST and 10 OAs, and tested
    technical controls to achieve the PII protection objectives.
   Reviewed the nature and use of PII, to determine whether a SORN was required and if
    required, whether one was published. We further reviewed DOT’s publication of
    SORNs in the Federal Register and verified that they contained only information about
    individuals that was "relevant and necessary" to accomplish DOT’s purpose. We verified
    that this information was updated as necessary.

For the Fiscal Year 2007 Privacy Assessment, we were not engaged to and did not perform
procedures to determine if the inventory of systems containing PII data was exhaustive and
if DOT had performed procedures to ensure all 429 DOT IT systems within all OAs had
been reviewed for existence of PII information. We reviewed the inventory of 109 PII
systems received from the DOT OCIO privacy office in October 2007. From this
population, we selected a representative sample of 20 systems from OST and 10 OAs for
substantive testing. The results and exceptions noted in this report are based on this sample.




Appendix A. Report on the 2007 Review of DOT’s Compliance With Section 522 of
the Consolidated Appropriations Act of 2005
                                                                                          21

DETAILED RESULTS OF REVIEW

1. Although the DOT OCIO and Privacy Office have established policies and
   procedures to protect DOT’s PII systems and data, the Privacy Office does not
   properly monitor its privacy processes for quality compliance with the provisions
   of Section 522.

The DOT Privacy Office has made significant progress in addressing its statutory
responsibilities under the General Government Act by developing processes to ensure
implementation of privacy protections in departmental programs. For example, the Privacy
Office has established processes for ensuring departmental compliance with the PIA
requirement in the E-Government Act of 2002. Instituting this framework has led to
increased attention to privacy requirements on the part of departmental components,
contributing to an increase in the number of PIAs issued.

OCIO has addressed its mandate to assure that technologies sustain, and do not erode,
privacy protections through a variety of actions, including implementing a weekly scorecard
of PII compliance, its PIA compliance framework, raising awareness of privacy issues
through a series of workshops, and participating in policy development for several major
DOT initiatives. The office has also taken action to address its mandate to evaluate
regulatory and legislative proposals involving the use of personal information by the federal
government and has coordinated with the DOT Office of General Counsel.

While substantial progress has been made in these areas, more work needs to be done in
other important aspects of DOT’s privacy protection processes. The details of the matter
are as follows:

General conditions found during the audit
¾ DOT did not provide evidence to support the effectiveness of the procedures used in
   identifying and securing information systems containing PII. The Privacy Office could
   not provide evidence that evaluations were performed for all 429 DOT systems that may
   potentially contain and/or process PII.
¾ DOT Privacy Office had not provided enhanced privacy training to OA Privacy Officers
   (or their representatives), who are responsible for deploying DOT’s PII policies at their
   respective OAs. DOT does provide its employees with security awareness training. Per
   the responses on the OCIO FISMA template for September 2007, only 86% of DOT
   employees have received security training for fiscal year 2007. Although security
   protection of PII data was part of these training courses, the agency’s Privacy Officers
   did not receive enhanced privacy security training to assist them in understanding all
   integral parts of their job responsibilities.




Appendix A. Report on the 2007 Review of DOT’s Compliance With Section 522 of
the Consolidated Appropriations Act of 2005
                                                                                                          22

Detailed conditions based on our sample of 20 DOT PII systems
¾ DOT did not provide evidence that the Privacy Office had a structured format to
   monitor the effectiveness and completeness of PIAs and SORNs implemented by the
   different OAs on affected systems. (DOT did not have a permanent Departmental
   Privacy Officer during our review period from October 2007 through January 2008).
   Limited resources and/or personnel could account for this lack of adequate monitoring
   resulting in the following:
   o A PIA had not been performed for 1 of 20 systems in our sample. This system
       contained public PII and required a PIA.
   o SORNs were not published for 9 of 20 sample systems tested. While the Privacy
       Office has reviewed, approved, and issued new SORNs since its establishment in
       2003, nine sampled systems did not have these notices published. The department is
       not in compliance with the Office of Management and Budget (OMB) requirements
       that SORNs be published and reviewed biennially, nor can it be assured that the
       privacy implications of its many systems that process and maintain PII have been
       fully and accurately disclosed to the public. These notices should identify, among
       other things, the type of data collected, the types of individuals about whom
       information is collected, and the intended uses of the data.
¾ DOT OAs had not established MOUs for 2 of 5 systems from our sample of 20 systems
   that share privacy data with external agencies. Also, the PIAs reviewed did not provide
   guidance on privacy information sharing with other agencies. These PIAs did not include
   measures to escalate requests from federal agencies (law enforcement bureaus) that may
   require PII for legitimate government business.

Section 522 describes Chief Privacy Officer’s security responsibilities as follows:
“…A: PRIVACY OFFICER: Each agency shall have a Chief Privacy Officer to assume primary
responsibility for privacy and data protection policy, including:

1. Assuring that the use of technologies sustain, and do not erode, privacy protections relating to the use,
   collection, and disclosure of information in an identifiable form.
2. Assuring that technologies used to collect, use, store, and disclose information in identifiable form allow
   for continuous auditing of compliance with stated privacy policies and practices governing the collection,
   use and distribution of information in the operation of the program.




Appendix A. Report on the 2007 Review of DOT’s Compliance With Section 522 of
the Consolidated Appropriations Act of 2005
                                                                                          23

Recommendations:

We recommend that DOT:
• Implement a process for the timely review and monitoring of the privacy process to
   include: inventory of all affected systems; review and approval of PIAs; review and
   approval of SORNs prior to publication; and periodical updates of both the PIAs and
   the SORNs.
• Establish MOUs with all third parties who share PII with DOT.
• Implement procedures to ensure all 429 DOT systems are evaluated for existence
   and/or processing of PII. The DOT Privacy Office inventory identified 109 PII
   systems out of DOT’s 429 systems. This evaluation should be documented and should
   cover the remaining 320 of 429 DOT information systems
• Require enhanced privacy security training for Privacy Officers at the different OAs
   who are responsible for implementing privacy practices at their respective OAs.

2. DOT Technical Controls related to the protection of personally identifiable
   information need to be strengthened.

The DOT Privacy Office has made significant effort in carrying out its statutory
responsibilities and its related role in ensuring compliance with Section 522 of the General
Government Appropriations Act, notably by establishing a framework for securing data
contained in privacy systems. However, our review of a sample of 20 privacy systems
highlighted that technical control over access to these systems needed to be strengthened.
The details are as follows:

¾ Twelve out of 20 sampled PII systems reviewed transmit PII data over DOT’s network
  in clear unencrypted text. Some of these systems contained public data.
¾ Four out of 20 systems were non-compliant with DOT security policies concerning
  basic password security requirements. (1) number of login attempts on two systems on
  our sample (10%) was set to expire after six unsuccessful logon attempts; (2) password
  parameters for one system requires the password to be changed every 180 days contrary
  to DOT policy of 90 days; (3) One system had not implemented secure password
  settings such as password complexity, number of invalid login attempts, session
  expiration and password expiration.

Department of Transportation - Information Technology and Information Assurance
Policy (2006-22): states:
“…It is the policy of the DOT that all DOT personnel and contractors comply with the
provisions of this policy. DOT will begin to implement the following provisions during the
fourth quarter of Fiscal Year 2006 for any information technology system that stores,
processes and/or transmits PII.

1. Encrypt all PII wherever it may reside within six months of the issuance of this policy.
   The encryption methodology employed shall satisfy the requirements set forth in the
   current National Institute of Standards and Technology Federal Information Processing
   Standard 140-2, Security Requirements for Cryptographic Modules, May 2001.


Appendix A. Report on the 2007 Review of DOT’s Compliance With Section 522 of
the Consolidated Appropriations Act of 2005
                                                                                         24

    a. Encrypt all data on mobile devices within six months of the issuance of this policy.
    b. Encryption policies apply to all storage media devices, to include CDs, DVDs, disk
       drives, USB memory drives, SD cards, etc.

Employee Awareness Guide to Information Assurance and Technology Security
(March 2006): states:
“…Passwords are effective only when properly used. Password and/or PIN protected
screen savers should be used on all systems and set to activate after 15 minutes of non-use.
Passwords, at a minimum, must be protected as sensitive information. Passwords should
never be written down.

Mandatory Password Changes:
Passwords are required to be changed as indicated below:

¾ Every 90 days for general users.
¾ Every 30 days for systems administrators.
¾ Immediately upon completion of an investigation of a known or suspected compromise.
¾ The password and associated user account must be suspended within one day if the
  user’s access is removed for reasons of pending or current punitive actions.
¾ When the user leaves the organization or no longer requires access for a period greater
  than three months, the password must be changed as soon as possible, but no later than
  three days.
¾ After three invalid login attempts, the password and login ID should be suspended…”

Recommendations:

We recommend that DOT:
• Implement encryption of data transmitted over the agency’s communication
   infrastructure with emphasis on encryption of systems containing privacy data.
• Upgrade all systems containing sensitive personally identifiable information that are
   unable to support secure computing practices. Alternatively, privacy data contained in
   these systems should be removed or transferred to more secure platforms.
• Periodically review the agency’s information systems to ensure they are in compliance
   with DOT IT security policies.




Appendix A. Report on the 2007 Review of DOT’s Compliance With Section 522 of
the Consolidated Appropriations Act of 2005
                                                                                                             25


           APPENDIX B. MANAGEMENT COMMENTS



           U.S. Department of
           Transportation
                                                                         Memorandum
           Office of the Secretary
           of Transportation

Subject:                                                                              Date:    August 19, 2008
              INFORMATION: OIG Privacy Audit
                                                                                   Reply to
  From:                                                                            Attn. of:

              Daniel G. Mintz
              Chief Information Officer
    To:
              Rebecca C. Leng, Office of the Inspector General


              We concur with the OIG findings and all but one recommendation. Regarding the organizational
              positioning of the Privacy Officer we suggest taking a slightly different approach and suggest we
              relook where we are next year.

              We developed a plan of action to implement the report’s recommendations which will help us
              achieve compliance with OMB requirements for protecting privacy in Federal government
              agencies. We are in the process of acquiring and implementing technology to assist the
              Department in protecting the PII within the Department’s information technology systems and
              infrastructure. Specific responses to each of the report’s nine (9) recommendations follow:

              OIG Recommendation 1: Require system owners to submit evaluation results on whether PII
              exists in the 320 systems that were not included in the DOT Privacy Office inventory.

              OCIO Response: Concur. In August 2007, all DOT systems were evaluated through the
              Survey of Department of Transportation Systems Containing Personally Identifiable
              Information. Although this survey was comprehensive and included all DOT systems, during
              the course of the contractor review, the Office transitioned to a new privacy officer and not all
              records were available for review. These records have now been made available to OIG.
              OCIO has also initiated additional measures to ensure appropriate oversight of PII. For
              example, quarterly C&A compliance reviews are evaluated to determine if the system contains
              PII and if it has a PIA and SORN. In addition, OCIO is considering requiring system owners to
              conduct a Privacy Threshold Analysis (PTA) to determine, during initial certification and
              recertification, whether the system contains PII. This information would be reported to OCIO.
              OCIO has set a target to implement this requirement by the end of March 2009.

              OIG Recommendation 2: Require system owners of sampled systems to correct privacy
              protection deficiencies identified in the areas of missing SORNs, PIAs, and MOU with outside
              agencies when sharing PII; notify system owners of remaining PII systems to check whether
              they need to take similar corrective actions.

              OCIO Response: Concur. OCIO has achieved considerable progress in this area as a result
              of this audit and the trend is continuing. OCIO has notified the system owners of any missing
              or outdated SORNs and PIAs. OCIO will take action to notify all owners of systems of PII to
              address and update memoranda of understanding with outside agencies. This
              recommendation will be fully implemented by the end of March 2009.



           Appendix B. Management Comments
                                                                                              26


 OIG Recommendation 3: Require OA Privacy Officers to implement a process under which
 future systems are subject to periodic review to ensure that SORNs are initiated and posted,
 PIAs are developed, and MOU with outside agencies are documented: and that such elements
 are appropriately updated when systems undergo change.

 OCIO Response: Concur. The recommended actions coincide with DOT’s privacy policy. This
 recommendation will be implemented through appropriate direction to operating administration
 CIO’s and Privacy Officers, and in DOT CIO Policy by the end of March 2009.

 OIG Recommendation 4: Encrypt all PII data transmitted over the Department’s
 communications network.

 OCIO Response: Concur. OCIO agrees with the requirement to encrypt all PII data
 communications. OCIO is presently planning to conduct a detailed analysis of systems and
 encryption requirements and anticipates that this analysis will be completed by the end of
 March 2009. At that time, OCIO will detail an action plan to implement encryption requirements
 consistent with the results of the analysis.

 OIG Recommendation 5: Require system owners of sampled systems to correct security
 deficiencies concerning password security controls, invalid log-in attempts, and sessions time-
 out expiration; and notify system owners of remaining PII systems to check whether the need
 to take similar corrective actions.

 OCIO Response: Concur. We anticipate that the systems with PII can be secured by the end
 of July 2009. We will address the issues identified in the report to OA CIOs, ISSOs, Privacy
 Officers, System Owners and other responsible parties.

 OIG Recommendation 6: Require OA Privacy Officers to implement a process under which
 periodic performance checks are carried out to ensure that all PII systems remain in full
 compliance with DOT security policies.

 OCIO Response: Concur. OCIO will initially issue a Directive by the end of Q1 FY2009 that
 identifies OCIO’s expectations for conducting performance checks to remain in full compliance
 with security policies. A final policy memorandum will incorporate feedback obtained in the
 Directive phase, and will be issued by the end of Q2 FY2009.

 OIG Recommendation 7: Require system owners of sampled systems to correct security
 deficiencies found in their Web sites and notify system owners of remaining PII systems to
 check whether they need to take similar corrective actions.

 OCIO Response: Concur. OCIO will provide written notification to the modal Privacy Officers
 and owners of sampled systems to correct security deficiencies found in their Web sites. OCIO
 will also direct modal Privacy Officers, ISSO’s, and CIO’s to work with the owners of all
 systems to identify necessary corrective actions and develop corrective plans by the end of Q2
 FY2009.

 OIG Recommendation 8: Provide enhanced privacy security training for OA Privacy Officers,
 who are responsible for implementing annual privacy practices in their respective
 organizations.

 OCIO Response: Concur. We have recommended specialized training available to OA
 Privacy Officers. OCIO will establish specialized training requirements – both content and
 frequency – in written policy by the end of Q2 FY2009.




Appendix B. Management Comments
                                                                                                 27

 OIG Recommendation 9: Increase the visibility of the DOT Privacy Program by having the
 Departmental Privacy Officer report directly to the Chief Information and Privacy Officer

 OCIO Response: Concur in part - The tradeoff between following this recommendation and
 keeping the Privacy Officer in its current organizational location is between increased visibility
 and the synergies that we believe exists for many of the privacy goals and security goals and
 implementation plans as well as the ability to make more efficient use of staff collectively.

 It is not entirely clear to us how many of the issues identified in the report are due to the
 personnel changes that were going on during the time of the analysis and thus, how much
 making this one change, would achieve. We propose leaving the structure as is for the next
 year – fiscal year 2009, focusing on implementing the suggested changes, enhancing a
 number of associated internal auditing reviews, and developing more transparent
 measurements of status. At the end of FY2009, we will relook the status, evaluate how well the
 office is doing, and determine whether an organizational change would be a good step.




Appendix B. Management Comments
